No. 21-

 

IN THE
SUPREME COURT OF THE UNITED STATES

 

AMOS MAST, MENNO MAST, SAM MILLER, and AMMON
SWARTZENTRUBER,
Petitioners,
vs.
COUNTY OF FILLMORE and MINNESOTA POLLUTION CONTROL
AGENCY,

Respondents.

 

On Petition for a Writ of Certiorari to
the Minnesota Court of Appeals

 

PROOF OF SERVICE

 

I, Brian N. Lipford, do swear and declare that on this date, January 20, 2021,
as required by Supreme Court Rule 29, I have served and enclosed the Motion
for Leave to Proceed In Forma Pauperis and Petition for a Writ of Certiorari on
each party to the above proceeding or that party’s counsel, and on every other
person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and
with first-class prepaid.
Executed on January 20, 2021.

LAW OFFICES OF SOUTHERN MINNESOTA
REGIONAL LEGAL SERVICES, IN

   
   

, ID#313856
Attorney for Petitioners

903 West Center Street, Suite 230
Rochester MN 55902
507.292.0080

brian. lipford@smrls.org
